No. 20-843

 

IN THE

Supreme Court of the United States

New York State Rire & PISTOL ASSOCIATION, ef al.,
Petitioners,
v.
KEVIN BRUEN, in His Official Capacity as
Superintendent of the New York State Police, ET AL.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

BRIEF OF THE CITY OF NEW YORK
AS AMICUS CURIAE
IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,221 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 21, 2021.

 

Colin Casey Hoga:
Wilson-Epes Print Co., Inc.
